TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                           RECOVERY ACT


                   Processes for Ensuring Compliance With
                  Qualifying Advanced Energy Project Credit
                     Requirements Can Be Strengthened



                                         February 6, 2014

                              Reference Number: 2014-40-011




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                          HIGHLIGHTS



PROCESSES FOR ENSURING                              the IRS appropriately considered the credits
COMPLIANCE WITH QUALIFYING                          allocated to the projects as forfeited, issued the
ADVANCED ENERGY PROJECT CREDIT                      manufacturers forfeit letters, and accounted for
REQUIREMENTS CAN BE                                 the $150 million in Advanced Energy Credits
                                                    allocated to these projects.
STRENGTHENED
                                                    However, TIGTA found that the IRS did not
                                                    consistently evaluate project location changes to
Highlights                                          determine if the change should result in credit
                                                    forfeiture. Further, although the IRS has
Final Report issued on February 6, 2014             processes to ensure manufacturer compliance
                                                    with agreement, certification, and
Highlights of Reference Number: 2014-40-011         placed-in-service requirements, similar
to the Internal Revenue Service Commissioners       processes were not in place to verify compliance
for the Large Business and International Division   with the provision to notify the IRS of significant
and the Small Business/Self-Employed Division.      changes in project plans.

IMPACT ON TAXPAYERS                                 Finally, while the IRS developed a Compliance
                                                    Initiative Project that identifies business
The American Recovery and Reinvestment Act          taxpayers erroneously claiming the credit, it
of 2009 (the Recovery Act) established the          does not have a similar process to identify
Qualifying Advanced Energy Project Credit           individual taxpayers erroneously claiming the
(Advanced Energy Credit) to encourage               credit. Our review identified 1,149 individual
development of a manufacturing base to support      taxpayers who electronically filed Forms 1040,
renewable energy industries. The Recovery Act       U.S. Individual Income Tax Return, reporting
provided for $2.3 billion in Advanced Energy        more than $3 million in Advanced Energy
Credits to be allocated to manufacturers for        Credits for Tax Year 2011 and who do not
qualified projects. Manufacturers awarded the       appear to have a business relationship with a
credit must meet specific requirements to claim     manufacturer that was awarded the credit.
the credit on their income tax returns. While the
IRS established processes to ensure                 WHAT TIGTA RECOMMENDED
manufacturer compliance with requirements for
                                                    TIGTA recommended that the IRS develop
receiving the Advanced Energy Credit, these
                                                    processes to ensure that changes in projects are
processes can be strengthened to ensure that
                                                    fully evaluated and that all projects are placed
only eligible manufacturers receive the credit.
                                                    into service at the locations specified in the
WHY TIGTA DID THE AUDIT                             manufacturer’s agreement. In addition, the IRS
                                                    should develop a process to verify that individual
Internal Revenue Code Section 48C and IRS           tax returns claiming the Advanced Energy Credit
Notice 2009-72, Qualifying Advanced Energy          are valid and entitled to the credit.
Project Credit, contain requirements that
manufacturers must meet to be eligible to claim     IRS management agreed with the
the credit for income tax purposes. The             recommendations. The IRS agreed to ensure
objective of this review was to assess the          that changes in projects are fully evaluated and
effectiveness of IRS efforts to ensure              that all projects are placed into service at the
manufacturer compliance with Advanced Energy        locations specified in the manufacturer’s
Credit requirements.                                agreement. The IRS also agreed to evaluate
                                                    and assess individual taxpayer compliance risks,
WHAT TIGTA FOUND                                    and determine if a compliance strategy is
                                                    warranted based on its assessment of individual
The IRS ensured that manufacturers complied
                                                    taxpayer compliance risks.
with agreement and certification requirements.
In addition, for those projects that did not meet
the agreement and/or certification requirements,
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 6, 2014


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Processes for Ensuring Compliance With
                                 Qualifying Advanced Energy Project Credit Requirements Can Be
                                 Strengthened (Audit # 201340127)

 This report presents the results of our review to assess the effectiveness of Internal Revenue
 Service (IRS) efforts to ensure manufacturer compliance with Qualifying Advanced Energy
 Project Credit requirements. This audit was added to our Fiscal Year 2014 Annual Audit Plan
 and addresses the major management challenge of Fraudulent Claims and Improper Payments.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provided separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                      Processes for Ensuring Compliance With Qualifying
                     Advanced Energy Project Credit Requirements Can Be
                                        Strengthened




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Processes Ensure Manufacturer Compliance With Agreement
          and Certification Requirements .................................................................... Page 6
                    Recommendations 1 and 2: ................................................ Page 8

          The Process to Identify Taxpayers Erroneously Claiming Advanced
          Energy Credits Can Be Improved ................................................................. Page 8
                    Recommendation 3:........................................................ Page 9

                    Recommendation 4:........................................................ Page 10

          Guidance Did Not Fully Address Credit Recapture for Projects
          Partially Placed in Service ............................................................................ Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measure ................................................................ Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 22
             Processes for Ensuring Compliance With Qualifying
            Advanced Energy Project Credit Requirements Can Be
                               Strengthened




                            Abbreviations

e-file(d)            Electronically file(d)
I.R.C.               Internal Revenue Code
IRS                  Internal Revenue Service
TIGTA                Treasury Inspector General for Tax Administration
                     Processes for Ensuring Compliance With Qualifying
                    Advanced Energy Project Credit Requirements Can Be
                                       Strengthened




                                            Background

Section 1302 of the American Recovery and Reinvestment Act of 2009 (the Recovery Act)1
established the Qualifying Advanced Energy Project Credit (hereafter referred to as the
Advanced Energy Credit) under Internal Revenue Code (I.R.C.) Section (§) 48C. The credit was
intended to encourage development of a
manufacturing base to support renewable energy
                                                       On January 8, 2010, the President
industries. Manufacturers selected are eligible to        announced the award of the
receive a credit equal to 30 percent of the cost,      Advanced Energy Credits for 183
limited to the amount awarded, for a project that      projects for a total of $2.3 billion.
establishes, expands, or re-equips a manufacturing
facility for the production of certain types of
property, including those designed to produce energy from renewable sources such as the sun
and wind. For those manufacturers awarded the credit, I.R.C. § 48C and Internal Revenue
Service (IRS) Notice 2009-72, Qualifying Advanced Energy Project Credit, contain specific
requirements that the manufacturers must meet to be eligible to claim the credit for income tax
purposes. Figure 1 summarizes these requirements.
        Figure 1: Manufacturer Requirements for the Advanced Energy Credit

    Requirement                                               Description
                      By March 15, 2010, the manufacturer is required to execute an agreement with the
     Agreement        IRS describing the project, maximum credit allowed, and conditions for receiving the
                      credit.
                      By January 7, 2011, the manufacturer is required to submit evidence that the
    Certification     requirements of certification have been met including: Federal, State, and local
                      permits for construction; contracts for project financing, invoices for purchases, etc.
                      Within three years of the date of certification, the manufacturer is required to place
                      the project into service, i.e., the project is ready and available for its intended
Placed in Service     purpose. The manufacturer is required to notify the IRS when the project is placed
                      into service. The latest date for a manufacturer to place a project into service from
                      the initial allocation is August 31, 2014.2
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of I.R.C. § 48C and IRS
Notice 2009-72.



1
 Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
 The latest IRS certification date for some of the projects was August 31, 2011. Therefore, these manufacturers
have until August 31, 2014, to place their project into service.


                                                                                                           Page 1
                    Processes for Ensuring Compliance With Qualifying
                   Advanced Energy Project Credit Requirements Can Be
                                      Strengthened



The IRS is responsible for ensuring that manufacturers comply with the requirements detailed in
Figure 1. For those manufacturers not in compliance with the requirements, IRS Notice 2009-72
provides that the credit awarded to the project is fully forfeited. Figure 2 shows the Phase I3
allocation of projects awarded the credit, credits forfeited, and certified projects as of
March 11, 2013.
                    Figure 2: Advanced Energy Credit Phase I Allocation
                                                                                        Credit Amount
               Phase I Project Status              Projects       Manufacturers4          Awarded
           Credits Originally Awarded                    183                     133         $2.30 billion
           Credits Forfeited                               32                     24         $150 million
           Projects Certified                            151                     116         $2.15 billion
          Source: TIGTA analysis of IRS project files as of March 11, 2013.

Manufacturers are allowed to claim the credit for the tax year5 the property is placed in service or
during the tax years that qualified progress expenditures are made.6 Under the qualified progress
expenditures election, a manufacturer must meet the placed-in-service requirement, i.e., three
years from the date of certification. When this election is made and the three-year requirement is
not met, the manufacturer forfeits the credit and must recapture, i.e., add back to income tax, the
amount of any previously claimed Advanced Energy Credit.7
The Advanced Energy Credit is claimed on a tax return as a General Business Credit.8 A
General Business Credit reduces a taxpayer’s tax liability amount, i.e., the credit is subtracted
directly from taxes the taxpayer owes. The Advanced Energy Credit is nonrefundable and is
subject to Alternative Minimum Tax limitations.9 Any unused credit amount from the current

3
  The Phase I allocation occurred between September 16, 2009, (manufacturers to submit a preliminary project
application) and January 7, 2010 (the IRS notifies selected manufacturers that they have been awarded the credit).
4
  In the case of C corporations, we consider the parent corporations to be the manufacturer when consolidated
returns are filed. Our review also determined that seven manufacturers had more than one project awarded. These
manufacturers forfeited a project credit but have other projects that remain ongoing. Therefore, the total of “Projects
Certified” is larger (116) than the difference between “Credits Originally Awarded” and “Credits Forfeited.”
5
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
6
  Qualified progress expenditures are those expenditures made before the property is placed in service and for which
the taxpayer has made an election to treat the expenditures as progress expenditures.
7
  26 U.S.C. § 50(a)(2) and 26 C.F.R. § 1.47-1.
8
  For Tax Year 2011, there were a total of 32 source credit forms that made up the credits claimed as a General
Business Credit.
9
  The Alternative Minimum Tax attempts to ensure that individuals and corporations that benefit from certain
exclusions, deductions, or credits pay at least a minimum amount of tax. The limitation for General Business
Credits is calculated based on the taxpayer’s net income tax minus the greater of the tentative minimum tax or
25 percent of the net regular tax liability that is more than $25,000.


                                                                                                              Page 2
                   Processes for Ensuring Compliance With Qualifying
                  Advanced Energy Project Credit Requirements Can Be
                                     Strengthened



year can be carried back one year by filing an amended tax return or carried forward for up to
20 years on subsequently filed tax returns. The credit is reported on Form 3468, Investment
Credit, Part II, line 7, and carried forward to Form 3800, General Business Credit, Part III,
line 1a. Figure 3 shows where the Advanced Energy Credit is reported on Form 3468.
               Figure 3: Selected Sections of Form 3468 for Tax Year 2012




Source: Form 3468 for Tax Year 2012.

In general, the allowable portion of the credit (including carryback or carryforward) from
Form 3800 is then used to offset taxes on the manufacturers’ income tax returns. However, for
manufacturers that are pass-through entities,10 the income, loss, deductions, and credits are
reported on the income tax returns of the owners of the entities. Manufacturers awarded the
credit include corporate taxpayers, S corporations, partnerships, and sole proprietorships. The
shareholders and partners of the pass-through entities include corporations, trusts, and individual
taxpayers. As of July 2013, a total of 72 manufacturers reported Advanced Energy Credits
totaling approximately $926 million for Tax Years 2009 through 2011.

A prior TIGTA review identified inconsistencies between issued guidance and
the law
A prior TIGTA review11 identified inconsistencies exist between IRS Notice 2009-72 and
I.R.C. § 48C criteria. For example, IRS Notice 2009-72 issued September 2009 included

10
   Pass-through entities include partnerships, S corporations, estates, and trusts in which the income, loss,
deductions, and credits are passed on to the underlying owners. Owners of these entities may be partners,
shareholders, beneficiaries, or investors.
11
   TIGTA, Ref. No. 2013-40-029, Assessment of the Internal Revenue Service’s Interpretation of Section 1302 of the
Recovery Act: Qualifying Advanced Energy Project Credit (Mar. 2013).


                                                                                                          Page 3
                 Processes for Ensuring Compliance With Qualifying
                Advanced Energy Project Credit Requirements Can Be
                                   Strengthened



Program Policy Factors that would be considered when selecting manufacturers for the credit.
These factors were in addition to the selection criteria included in I.R.C. § 48C. Figure 4
provides a description of each of the four Program Policy Factors.
         Figure 4: Program Policy Factors Applied to Select Manufacturers
     Program Policy Factor                                   Description
                                Applied in an effort to ensure that the Advanced Energy Credit was
    Geographic Diversity        awarded to manufacturers that were geographically dispersed
                                throughout the United States.
                                Applied in an effort to ensure that the Advanced Energy Credit was
    Technology Diversity
                                awarded to projects that represented a diverse technology base.
                                Applied in an effort to ensure that Advanced Energy Credits
    Project Size Diversity
                                awarded were dispersed among large, medium, and small projects.
                                Applied in an effort to ensure that the Advanced Energy Credit was
    Regional Economic           awarded to those projects that would have a positive impact on the
    Development                 economic development within the region where the manufacturing
                                would occur.
   Source: Department of Energy, Office of Energy Efficiency and Renewable Energy.

The inconsistencies between IRS Notice 2009-72 and I.R.C. § 48C criteria resulted from the
IRS’s efforts to: 1) simplify program guidance so it would be more easily understood by
manufacturers; and 2) ensure that the credits were disbursed equitably among qualified
applicants. However, the inconsistencies did not affect the IRS’s compliance with the Code
requirements when awarding the Advanced Energy Credit.
The U.S. Department of Energy noted that the Program Policy Factors were used to ensure that
the $2.3 billion in allocated credits was disbursed across a range of project types, sizes, and
locations among qualified applicants. The use of the Program Policy Factors affected which
qualified projects the Department of Energy recommended to the IRS. All Advanced Energy
Credit awards made by the IRS were consistent with U.S. Department of Energy rankings and
recommendations. The IRS’s involvement in the ranking and review process was limited to
verifying that manufacturers timely filed a complete application for certification with the IRS for
each recommended energy project.
This review was performed at the IRS’s Large Business and International Division, Natural
Resources and Construction Industry function, in Houston, Texas, and the Wage and Investment
Division office in Atlanta, Georgia, during the period January through August 2013. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit

                                                                                                 Page 4
                Processes for Ensuring Compliance With Qualifying
               Advanced Energy Project Credit Requirements Can Be
                                  Strengthened



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 5
                       Processes for Ensuring Compliance With Qualifying
                      Advanced Energy Project Credit Requirements Can Be
                                         Strengthened




                                          Results of Review

Processes Ensure Manufacturer Compliance With Agreement and
Certification Requirements
The IRS ensured that the manufacturers complied with agreement and certification requirements.
For example, for each of the 151 projects certified, the manufacturers submitted their agreements
to the IRS by the March 15, 2010, deadline and provided necessary documentation, such as
environmental or occupancy permits, purchase invoices, and/or other evidence to show the
project was progressing by the January 7, 2011, deadline for certification.
The manufacturers for the remaining 32 of 183 projects did not meet the agreement and/or
certification requirements. The manufacturers either decided not to pursue the projects due to
market conditions, did not provide documentation required by the deadline, or moved the project
outside of the United States. The IRS appropriately considered the credits allocated to the
projects as forfeited, issued the manufacturers forfeit letters, and accounted for the $150 million
in Advanced Energy Credits allocated to these projects.
The amount of credit forfeited for these projects agreed with the amount the IRS determined to
be available for a Phase II allocation. On February 7, 2013, the IRS issued Notice 2013-12
reporting the results of the Phase I allocation and established a second allocation phase (Phase II
allocation) of the Advanced Energy Credit to distribute the $150 million of credits available as a
result of credits forfeited by manufacturers in Phase I. The IRS plans to use a process similar to
what was used to select qualifying projects in Phase I to award the forfeited credits as part of the
Phase II allocation.
Finally, the IRS established a process to monitor manufacturer compliance with the
placed-in-service requirement. Manufacturers are instructed to notify the IRS when they have
placed a project into service. The IRS records and tracks this information for all projects. The
IRS informed us that, after the three-year deadline12 for placing a project into service has passed,
it will contact those manufacturers that have not notified the IRS to learn whether the
manufacturers have placed the projects into service.




12
     The latest date for a manufacturer to place a project into service from the initial allocation is August 31, 2014.


                                                                                                                   Page 6
                 Processes for Ensuring Compliance With Qualifying
                Advanced Energy Project Credit Requirements Can Be
                                   Strengthened



The IRS did not consistently evaluate project location changes to determine if the
change should result in credit forfeiture
The IRS did not document its evaluation of the location change ***********1************
************1********************. Our review of IRS project file information identified
a total of eight projects in which the manufacturer changed the project’s location from the
location included in the original application. For all eight projects, the manufacturer notified the
IRS of the location change. However, ****************1*********************
************************************1*****************************************
***********************************1**************************, the IRS evaluated
the location change by using a multifactor evaluation process that included obtaining guidance
from the Department of Energy. This process evaluated the location change in terms of factors
used by the Department of Energy such as the time required to complete the project, regional
economic development, and geographical diversity. For example, ***********1*********
****************************1*************************************************
*****************************1************************************************
******************************1****************
When ranking projects for the Phase I allocation, the Department of Energy considered the
number of projects that would be awarded to an individual State and whether the location was
more depressed economically and could thereby benefit more from the jobs the project would
create. The location of the project is especially important as it affected two of the four Program
Policy Factors used in ranking and awarding credits – Geographic Diversity and Regional
Economic Development. IRS Notice 2009-72 requires taxpayers to inform the IRS of any
potentially significant change in the projects’ plans. This is defined as a change that may have
affected the rankings and recommendations by the Department of Energy or the IRS in accepting
the applications. If the change is deemed significant, the credit is forfeited.
*********************************1********************************************
*********************************1********************************************
*********************************1********************************************
*********************************1********************************************
*********************************1********************************************
*********************************1********************************************
*********************************1******************************.

Processes were not established to ensure manufacturer compliance with the
provision to notify the IRS of significant changes in project plans
We found that although the IRS has processes to ensure manufacturer compliance with
agreement, certification, and placed-in-service requirements, similar processes were not in place
to verify compliance with the provision to notify the IRS of significant changes in project plans.
Processes had not been established to verify manufacturer compliance with project specifications

                                                                                             Page 7
                 Processes for Ensuring Compliance With Qualifying
                Advanced Energy Project Credit Requirements Can Be
                                   Strengthened



such as the physical location of the project. For example, as of March 11, 2013, 96 projects were
either placed in service (64 projects) or a credit was claimed by the manufacturer (32 projects).
For 87 of the 96 projects, we were able to verify the location of the project via review of IRS
project files, news articles, manufacturer press releases, etc. However, for nine of these 96
projects, we were unable to verify that the manufacturers placed the projects at the locations
indicated in their application for certification.
On July 8, 2013, we notified the IRS of our inability to confirm the location for nine projects we
reviewed, but it was unable to provide any additional information to confirm the location of the
projects. The IRS indicated that it would verify manufacturer compliance with provisions
included in the manufacturers’ project plans as part of an audit examination.

Recommendations
The Commissioner, Large Business and International Division, should:
Recommendation 1: Develop a process to ensure that changes in projects are fully evaluated
for significance and a determination is made as to whether forfeiture of the credit is required.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will instruct Compliance Initiative Project examiners to look for changes in projects,
       and will provide the examiners guidance on determination of significance and whether
       credit forfeiture is warranted.
Recommendation 2: Develop a process to ensure manufacturer compliance with project
specifications including that projects are placed into service at the locations specified in the
manufacturer’s agreement.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a process to ensure that projects are placed into service at the locations
       specified in the manufacturer’s agreement.

The Process to Identify Taxpayers Erroneously Claiming Advanced
Energy Credits Can Be Improved
The IRS developed a Compliance Initiative Project that focuses on the compliance of business
taxpayers claiming the credit. This initiative involves identifying business taxpayers reporting
an Advanced Energy Credit basis and/or credit amount on an electronically filed (e-filed)
Form 3468. The taxpayer reporting the credit is then compared to manufacturers awarded the
credit to identify taxpayers who report the credit but are not eligible. The process also identifies
manufacturers awarded the credit that report more than the amount awarded.
Our review of claims for the Advanced Energy Credits for Tax Years 2009 through 2011
identified 99 business taxpayers that erroneously reported more than $30.7 million in credits.
                                                                                              Page 8
                   Processes for Ensuring Compliance With Qualifying
                  Advanced Energy Project Credit Requirements Can Be
                                     Strengthened



These businesses were not eligible because they were not the manufacturers of the projects for
which the credits were awarded. IRS compliance processes identified each of these 99 ineligible
filers. Our review also determined that *****************1************************
*********************************1********************************************
***************************1*************************************************.

The Compliance Initiative Project does not address individual taxpayers who
erroneously claim Advanced Energy Credits
While the IRS developed a Compliance Initiative Project to evaluate compliance of business
taxpayers claiming the credit, the process does not include individual taxpayers reporting the
credit. Our review identified 1,149 individual taxpayers who e-filed Forms 1040, U.S. Individual
Income Tax Return, reporting more than $3 million in Advanced Energy Credits on Form 3468
for Tax Year 201113 and who do not seem to have a business relationship with a manufacturer
that was awarded the credit. We compared these individual taxpayers with the taxpayers who are
shareholders, partners, or beneficiaries related to the manufacturers of awarded credits.14 This
comparison found no business relationships existed between the manufacturers awarded the
credit and these individual taxpayers.
The IRS Compliance Initiative Project does not include individual taxpayers claiming the
Advanced Energy Credits because the function within the IRS that developed this initiative
has a primary focus on the compliance of business taxpayers. However, for taxpayers to be
eligible for the Advanced Energy Credit, the credit must be for a project certified by the
IRS, the manufacturer must have made a qualified investment in the advanced energy
project, and the total amount of the Advanced Energy Credit is limited to the credit amount
awarded.

Recommendations
The Commissioner, Large Business and International Division, should
Recommendation 3: Ensure a process to identify and verify that individual taxpayer tax
returns claiming Advanced Energy Credits are valid.


13
   Our analysis included Tax Years 2009 through 2011; however, additional tax assessments must generally be
processed within three years from the date the return was due or from the date on which the return was actually
filed, whichever is later. Therefore, the IRS generally cannot make or has limited time to make additional tax
assessments for the individual taxpayers who are not eligible to receive the Advanced Energy Credits on their Tax
Years 2009 and 2010 returns.
14
   This does not include individual taxpayers related to two pass-through entities. We requested the paper-filed
returns of the pass-through entities from IRS files but did not receive the returns to identify the owners of the
pass-through entities.


                                                                                                           Page 9
                 Processes for Ensuring Compliance With Qualifying
                Advanced Energy Project Credit Requirements Can Be
                                   Strengthened



       Management’s Response: IRS management agreed with this recommendation. The
       IRS indicated it will determine whether a compliance strategy is warranted to address and
       prevent improper or fraudulent claims of individual taxpayers claiming the Advanced
       Energy Credit.
Recommendation 4: Verify whether the 1,149 individual taxpayers for Tax Year 2011 we
identified as not related to a manufacturer of an awarded advanced energy project are entitled to
receive the Advanced Energy Credit.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS indicated that it will conduct an analysis based on the available data to assess
       individual taxpayer compliance risks associated with the Advanced Energy Credit. The
       IRS will consider 168 of the 1,149 individual taxpayers we identified. These 168
       individual taxpayers claimed the majority of the total dollars associated with the 1,149
       individual taxpayers. The IRS will make an appropriate risk assessment and determine
       those specific taxpayers to pursue to determine if the individual taxpayers’ claims for the
       credit were indeed erroneous.

Guidance Did Not Fully Address Credit Recapture for Projects
Partially Placed in Service
Our review of the I.R.C. and Notice 2009-72 found that the guidance did not fully address
recapture requirements when manufacturers claim the Advanced Energy Credit for projects
partially placed in service. Review of IRS project files identified seven manufacturers awarded
$56.1 million in Advanced Energy Credits that claimed $34.5 million in credit for projects
partially placed in service. Placing only a portion of a project into service may represent a
significant change in the project’s plans, and per Notice 2009-72, when deemed significant, the
credit is forfeited. As a result, the credits claimed by these manufacturers may be subject to
recapture, i.e. added back to income tax, if the entire project is not placed into service within
three years of certification.
The following is a hypothetical example of a manufacturer claiming credit for a project partially
placed in service, but the project is not placed into full service within the required three years:
       A manufacturer of a qualifying project states in the executed agreement with the
       IRS that the project will include the installation of two new manufacturing lines to
       produce components for qualifying renewable energy sources. The IRS certifies
       this project in March 2011. As such, the manufacturer has until March 2014 to
       place the project into service (three years from the date of certification). During
       Tax Year 2011, the manufacturer places one of the new manufacturing lines in
       service and begins production of the components. The manufacturer reports the
       basis of the property placed into service and multiplies the basis of the property
       by 30 percent to arrive at the Advanced Energy Credit claimed on Form 3468.
                                                                                            Page 10
                  Processes for Ensuring Compliance With Qualifying
                 Advanced Energy Project Credit Requirements Can Be
                                    Strengthened



        The manufacturer claims the credit on Form 3800 and Form 1120, U.S.
        Corporation Income Tax Return, for Tax Year 2011. The manufacturer does not
        place the remaining manufacturing line in service by March 2014, representing a
        project only partially placed in service and, as such, the manufacturer may be
        required to recapture the credit claimed.
Our review of tax return information identified 28 manufacturers that have claimed credits but
provided no notification of the project being placed into service, and 48 manufacturers that have
projects for which they have not claimed credits or notified the IRS of a project placed into
service. Because tax return information alone does not distinguish between manufacturers
partially placing projects in service from manufacturers claiming qualified progress
expenditures, this issue may affect more manufacturers than the seven instances we identified.
We brought this issue to IRS management’s attention on April 4, 2013. In response, IRS
management indicated that the initial guidance was drafted under the assumption that partially
placing a project in service by the deadline and fully completing the project after the deadline
would not constitute a significant change. However, the IRS agreed that, in the event that these
situations constitute a significant change, the credit is fully forfeited and must be recaptured if
the project is not fully placed into service by the deadline. On September 10, 2013, the IRS
updated the “Frequently Asked Questions”15 to address projects partially placed into service and
now indicates that generally the credit is fully forfeited if the project is not fully placed into
service by the deadline. The manufacturer may be allowed the credit for the portion of the
project placed into service before the deadline for a project that is fully placed into service after
the deadline and the change in the timing for placing the entire project into service is not a
significant change.




15
  The IRS provides information on the Advanced Energy Credit on the IRS website (www.IRS.gov), which
includes guidance in the form of a link to frequently asked questions.


                                                                                                   Page 11
                      Processes for Ensuring Compliance With Qualifying
                     Advanced Energy Project Credit Requirements Can Be
                                        Strengthened



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to assess the effectiveness of IRS efforts to ensure manufacturer
compliance with Qualifying Advanced Energy Project Credit (hereafter referred to as the
Advanced Energy Credit) requirements. To accomplish our objective, we:
I.         Determined whether the IRS has effective processes and procedures to ensure compliance
           with Advanced Energy Credit requirements.
           A. Reviewed Section 1302 of the American Recovery and Reinvestment Act of 2009
              (the Recovery Act),1 I.R.C. § 48C, and IRS Notice 2009-72, Qualifying Advanced
              Energy Project Credit, to identify applicable requirements for Advanced Energy
              Credits.
           B. Identified and evaluated processes and procedures the IRS established to ensure
              compliance with applicable requirements for Advanced Energy Credits.
           C. Discussed with the IRS the steps taken to ensure that:
               1. Taxpayers awarded the credit meet the agreement, certification, and
                  placed-in-service requirements.
               2. Only taxpayers awarded the credit are claiming the credit and only claim up to the
                  amount of the credit awarded.
           D. Performed a reconciliation to ensure that the IRS identified the correct number of
              projects and manufacturers.
II.        Determined whether the IRS effectively ensures that the taxpayers comply with the
           agreement, certification, and placed-in-service requirements as specified in IRS Notice
           2009-72.
           A. Identified the taxpayers for the 183 projects awarded the credit.
               1. Ascertained the tax filing requirements for these taxpayers and identified the
                  pass-through relationships of the taxpayers awarded the credit that are
                  partnerships, Subchapter-S corporations, and trusts.




1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).


                                                                                             Page 12
                   Processes for Ensuring Compliance With Qualifying
                  Advanced Energy Project Credit Requirements Can Be
                                     Strengthened



        B. Determined whether taxpayers timely and properly comply with the agreement
           requirements and whether the IRS timely and properly executed those agreements.
             1. Determined whether the taxpayer provided the IRS with a completed and signed
                agreement by March 15, 2010.
             2. Determined whether the IRS reviewed the agreement to verify that the taxpayer’s
                name and Taxpayer Identification Number were consistent with the initial award
                or allocation letter and were consistent with information present on the IRS
                Master File.2
             3. Determined whether the IRS reviewed the agreement to verify that the project
                description, location, and amount agreed with the information on the original
                award or allocation letter.
             4. Determined whether the IRS properly resolved any issues identified in the
                agreement review process.
             5. Determined whether the IRS properly executed an agreement and returned it to
                the taxpayer by April 16, 2010. If not, we determined whether this was due to
                issues identified by the IRS in reviewing the agreement.
        C. Verified whether taxpayers timely complied with the certification requirements.
             1. Determined whether the taxpayer provided the IRS supporting documentation
                needed to certify the project within one year of the date of the award or allocation
                letter (generally January 7, 2010, was the date of the allocation letter).
             2. Determined whether the information supplied by the taxpayer sufficiently shows
                that necessary permits were obtained and/or evidence that the taxpayer is
                completing steps that would result in placing the project in service within three
                years of the date of certification. If not, we determined whether the taxpayer
                provided a reasonable explanation of why these steps are not being completed.
             3. Verified that the date of the certification letter agrees with the information
                recorded by the IRS for the 151 projects certified by the IRS.
             4. Evaluated the timeliness of the IRS review and certification for each project.
             5. Evaluated the consistency of the certification process and the impact of changes in
                IRS policy.
                 a. Identified the reason or reasons the 32 projects were not certified.

2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.


                                                                                                          Page 13
                   Processes for Ensuring Compliance With Qualifying
                  Advanced Energy Project Credit Requirements Can Be
                                     Strengthened



                 b. Evaluated whether changes in IRS policy may have affected the decision to
                    not certify the projects.
        D. Identified and assessed whether changes to projects affected the credit awarded to the
           taxpayer.
             1. Reviewed each of the project folders to identify any indication of changes to a
                project that required IRS review to assess whether the credit remained valid and,
                if so, whether a new agreement was required.
             2. For those projects identified with changes, determined the type of change such as
                project location change or ownership change/successor interest.
             3. Evaluated whether the IRS took appropriate action to determine whether the
                change voided the credit or whether a new agreement was necessary to retain the
                credit.
        E. Determined whether the IRS correctly recorded placed-in-service information and
           whether the qualified expenses and credit were consistent with the law and the
           taxpayer notification.
             1. Reviewed each of the project folders for information that would indicate the
                taxpayer had placed the project in service. We identified 64 projects for which
                the taxpayer indicated the project had been placed in service as of
                March 11, 2013.
             2. For each project identified in Step II.E.1., determined whether the IRS had
                correctly recorded that the project had been placed in service.
             3. Determined whether the tax credit claimed was consistent with the date of
                notification for projects identified as placed in service.
        F. Determined whether the location of the project was at the location identified in the
           original application or at the revised location the IRS approved for 96 projects. This
           included 64 projects placed into service as of March 11, 2013, and 32 projects for
           which manufacturers claimed credits on their Tax Year3 2009 through 2011 returns
           filed as of March 11, 2013, but had not notified the IRS that the projects were placed
           into service. We identified the location of the project through review of permits
           and/or invoices maintained in the IRS’s project folders or through Internet research
           for news articles or by mapping of the location.



3
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.


                                                                                                        Page 14
                    Processes for Ensuring Compliance With Qualifying
                   Advanced Energy Project Credit Requirements Can Be
                                      Strengthened



III.     Determined whether the IRS accurately identified the appropriate amount of funds
         available for the Phase II allocation.
         A. Determined whether the credit was forfeited by reviewing the 183 projects awarded
            the credit.
         B. Assessed the accuracy of the IRS list of 32 forfeited projects totaling $150,228,397.
         C. Verified whether the IRS issued a letter to the taxpayer indicating the credit was
            forfeited and accurately described the reason or reasons for the forfeiture for each of
            the 32 forfeited projects.
IV.      Evaluated the accuracy of the Advanced Energy Credits claimed by business taxpayers
         awarded the credit.
         A. Reviewed all business income tax returns related to the 183 projects awarded the
            credit (133 taxpayers) to identify the business taxpayers that claimed the Advanced
            Energy Credit.
         B. Assessed whether the business taxpayers approved to claim the Advanced Energy
            Credit claimed no more than the amount of their awarded credit.
             1. Determined whether the IRS project list captured the placed-in-service date when
                applicable.
             2. Determined whether the IRS Compliance Initiative Project data identified the
                taxpayer as claiming the credit.
             3. For taxpayers claiming more than the award amount, determined whether the IRS
                Compliance Initiative Project process identified the excess amount claimed and
                what actions were taken.
             4. Determined whether individual taxpayers related to pass-through entities4
                claiming awarded credit claimed the appropriate share of the awarded credit. For
                any individual taxpayers who claimed more than the appropriate share of the
                awarded credit, we determined whether the IRS Compliance Initiative Project
                process identified the excess amount claimed and what actions were taken.
         C. Determined whether the taxpayers with a forfeited project claimed the Advanced
            Energy Credit. For any taxpayers claiming credits that were forfeited, we ascertained
            whether the IRS has a process to ensure that taxpayers recaptured the credit.


4
 Pass-through entities include partnerships, S corporations, estates, and trusts in which the income, loss, deductions,
and credits are passed on to the underlying owners. Owners of these entities may be partners, shareholders,
beneficiaries, or investors.


                                                                                                             Page 15
                    Processes for Ensuring Compliance With Qualifying
                   Advanced Energy Project Credit Requirements Can Be
                                      Strengthened



V.       Assessed the effectiveness of IRS processes to ensure that taxpayers reporting the
         Advanced Energy Credit meet eligibility requirements.
         A. Identified Tax Years 2009, 2010, and 2011 e-filed individual tax returns processed
            through March 23, 2013, reporting the Advanced Energy Credit on Form 3468,
            Investment Credit, Part II, line 7.
             1. Compared individual taxpayers reporting the credit on 2,290 Forms 3468, Part II,
                line 7, to manufacturers and the related entities, i.e., taxpayers who are
                shareholders, partners, or beneficiaries related to the manufacturers of awarded
                credits, identified in Steps IV.A. and IV.B.4.
         B. Identified Tax Years 2009, 2010, and 2011 e-filed business tax returns processed
            through December 31, 2012, reporting the Advanced Energy Credit on Form 3468,
            Part II, line 7.
             1. Compared business taxpayers reporting the credit on 172 Forms 3468, Part II,
                Line 7, to manufacturers and the related entities, i.e., taxpayers who are
                shareholders, partners, or beneficiaries related to the manufacturers of awarded
                credits, identified in Steps IV.A, and IV.B.4.
Data validation methodology
During this review, we relied on data extracted from e-filed individual tax returns reporting the
Advanced Energy Credit on Form 3468 from the Individual Return Transaction File,5 the Tax
Return Database,6 and the Modernized Tax Return Database for Processing Years7 2010, 2011,
and 2012 through March 23, 2013. We also relied on data extracted from e-filed business tax
returns reporting the Advanced Energy Credit on Form 3468 from the Business Return
Transaction File8 and from the Modernized Tax Return Database for Processing Years 2010,
2011, and 2012 through December 31, 2012. To assess the reliability of computer-processed
data, programmers in the TIGTA Office of Investigations Strategic Data Services Division
validated the Form 3468 data extracted from the IRS mainframes, and the programmers used
run-to-run balancing which involves documenting the records read in and written out at each step
of the file processing to ensure that all records were received and loaded. We validated the
accuracy of the data on the computer extract by comparing a judgmental sample9 of 20 individual
taxpayers and a judgmental sample of 23 business taxpayers to the IRS information residing on

5
  The IRS database that contains data transcribed from initial input of the original individual tax returns during
return processing.
6
  The database containing tax return source information for e-filed tax returns and tax forms.
7
  The calendar year in which the tax return or document is processed by the IRS.
8
  The IRS database that contains data transcribed from initial input of the original business tax returns during return
processing.
9
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.


                                                                                                              Page 16
                    Processes for Ensuring Compliance With Qualifying
                   Advanced Energy Project Credit Requirements Can Be
                                      Strengthened



the Integrated Data Retrieval System10 and the Modernized e-File Return Request and Display.11
As a result of our testing, we determined that the data used in our review were reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s processes, procedures, and
initiatives for processing the qualifying Advanced Energy Credit. We evaluated these controls
by interviewing management and analysts, reviewing tax returns of taxpayers related to
183 projects, examining project files, and analyzing qualifying Advanced Energy Credit data.




10
   IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
11
   IRS system capable of retrieving e-filed tax returns on the Modernized e-File, a web-based system that allows
electronic filing of tax returns through the Internet and uses the Extensible Markup Language format.


                                                                                                           Page 17
                Processes for Ensuring Compliance With Qualifying
               Advanced Energy Project Credit Requirements Can Be
                                  Strengthened



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Diana M. Tengesdal, Director
Darryl J. Roth, Audit Manager
Gwendolyn S. Gilboy, Lead Auditor
John L. Hawkins, Senior Auditor
Ngan B. Tang, Auditor
Linda M. Valentine, Auditor




                                                                                          Page 18
                Processes for Ensuring Compliance With Qualifying
               Advanced Energy Project Credit Requirements Can Be
                                  Strengthened



                                                                               Appendix III

                          Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (Domestic), Large Business and International Division SE:LB
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Natural Resources and Construction Industry, Large Business and International
Division SE:LB:NRC
Director, Planning, Analysis, Inventory, and Research, Large Business and International
Division SE:LB:P
Director, Shared Support, Large Business and International Division SE:LB:SS
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI
       Large Business and International Division SE:LB:SS:DPORL




                                                                                          Page 19
                    Processes for Ensuring Compliance With Qualifying
                   Advanced Energy Project Credit Requirements Can Be
                                      Strengthened



                                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $2,399,846 in erroneous Qualifying Advanced Energy
    Project Credits (hereafter referred to as Advanced Energy Credit) received by individual
    taxpayers who are unrelated to the manufacturers awarded the credit (see page 8).

Methodology Used to Measure the Reported Benefit:
We identified 2,222 individual taxpayers with Tax Year1 2009 through 2011 tax returns that
claimed the Advanced Energy Credit on Form 3468, Investment Credit, Part II, line 7, as of
March 23, 2013. From this population, we identified 38 individual taxpayers who were related
to the manufacturers, i.e., owners of the pass-through entities,2 awarded the credit and reported
credits. After this analysis, we identified 1,149 individual taxpayers reporting $3,128,998 in
Advanced Energy Credits during Tax Year 20113 who are unrelated to the manufacturers
awarded the credit and ineligible to claim the credit.
Our analysis also determined that 23 business taxpayers that reported the credit during Tax
Year 2011 were not awarded the credit, but were pass-through entities. The IRS’s Compliance
Initiative Project process identified these 23 entities that reported $729,152 in erroneous
Advanced Energy Credits which may be passed through to the individual taxpayers we
identified. Because tax adjustments made due to IRS enforcement actions taken as a result of the



1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  Pass-through entities include partnerships, S corporations, estates, and trusts in which the income, loss, deductions,
and credits are passed on to the underlying owners. Owners of these entities may be partners, shareholders,
beneficiaries, or investors.
3
  Our analysis included Tax Years 2009 through 2011; however, additional tax assessments must generally be
processed within three years from the date the return was due or from the date on which the return was actually
filed, whichever is later. Therefore, the IRS generally cannot make or has limited time to make additional tax
assessments for the individual taxpayers who are not eligible to receive the Advanced Energy Credits on their Tax
Years 2009 and 2010 returns.


                                                                                                              Page 20
                Processes for Ensuring Compliance With Qualifying
               Advanced Energy Project Credit Requirements Can Be
                                  Strengthened



IRS’s Compliance Initiative Project may also be passed through to the individual taxpayers, we
reduced our estimate of the outcome to $2,399,846 ($3,128,998 - $729,152).




                                                                                        Page 21
    Processes for Ensuring Compliance With Qualifying
   Advanced Energy Project Credit Requirements Can Be
                      Strengthened



                                                   Appendix V

Management’s Response to the Draft Report




                                                        Page 22
 Processes for Ensuring Compliance With Qualifying
Advanced Energy Project Credit Requirements Can Be
                   Strengthened




                                                     Page 23
 Processes for Ensuring Compliance With Qualifying
Advanced Energy Project Credit Requirements Can Be
                   Strengthened




                                                     Page 24
 Processes for Ensuring Compliance With Qualifying
Advanced Energy Project Credit Requirements Can Be
                   Strengthened




                                                     Page 25
 Processes for Ensuring Compliance With Qualifying
Advanced Energy Project Credit Requirements Can Be
                   Strengthened




                                                     Page 26
